September 28, 2009

STEVEN J. FORTE
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT:         Audit Report – Performance Goals for Market-Dominant Products
                 (Report Number EN-AR-09-005)

This report presents the results of our audit of U.S. Postal Service annual service
performance goals for market-dominant products1 (Project Number 09XG019EN000).
Our objectives were to assess the development and implementation processes used to
establish the performance goals for market-dominant products and determine whether
the Postal Service followed regulatory requirements. This self-initiated audit addresses
operational risks and is the second in a series of service standard and measurement
reviews. See Appendix A for additional information about this audit.

Conclusion

Management developed the fiscal year (FY) 2009 service performance goals2 for FCM
based on historical performance data, and the process used was reasonable. However,
the process for developing the FY 2009 performance goals for Standard Mail,
Periodicals, and package services needs improvement. Management did not have
sufficient and reliable historical data to establish performance goals, so they developed
the performance goals based on the following criteria: customer expectations, current
levels of performance, system capabilities, network capabilities, product differentiation,
economic realities, and professional judgment. The Postal Service could enhance
transparency in the implementation of the performance goals by documenting the
methodology and publishing performance goals more timely. In addition, the Postal
Service complied with regulatory requirements for establishing service performance
goals, although the Postal Regulatory Commission (PRC) required some
enhancements. Lastly, we noted potential operational risks, which include the Postal
Service’s ability to effectively measure service performance and to meet goals
established for some market-dominant products.




1
  Market-dominant products include First-Class Mail® (FCM), Standard Mail®, Periodicals, and package services.
2
 The Postal Accountability and Enhancement Act (Postal Act of 2006, or “the Act”) enacted December 20, 2006,
mandated the establishment of modern service standards and performance goals for each market-dominant product.
In accordance with the Act, the Postal Service developed modern service standards that specify the number of days
to achieve delivery for each three-digit ZIP Code origin-destination pair within the Postal Service network and
performance goals that express target percentages of on-time achievement.
Performance Goals for Market-Dominant Products                                                            EN-AR-09-005



FCM Performance Goals

The process used to establish FY 2009 FCM performance goals was reasonable. To
develop FCM performance goals, management used historical data available in the
External First-Class Measurement System (EXFC). A review of service performance
the Postal Service reported for FY 2009 first and second quarters indicated the actual
performance was consistent with established performance goals. Achieving
performance goals could increase customers’ confidence in the Postal Service’s ability
to deliver mail in a timely manner. See Appendix B for our detailed analysis of this
topic.

Standard Mail, Periodicals, and Package Services Performance Goals

The process used to establish performance goals for Standard Mail, Periodicals, and
package services needs improvement. Specifically, management did not maintain
documentation to support how they used available data and established criteria to
develop FY 2009 percentage goals. According to management, they developed service
performance goals based on limited, interim data that may not represent the measure of
overall system-wide performance as a whole. Consequently, to establish performance
goals, management used customer expectations, current levels of performance, system
capabilities, network capabilities, product differentiation, economic realities, and their
professional judgment.

Our review of service performance data for the first and second quarters of FY 2009
indicates actual service performance was significantly lower than established service
performance goals for Standard Mail, Periodicals, and package services. According to
management, once the Intelligent Mail Barcode® (IMb) system is in place and Start-the-
Clock programming3 is implemented, additional data will be available to measure
service performance. However, management also stated customer participation in the
IMb process is important for obtaining comprehensive service measurement data and
that this system is in its early stages, so it will be some time before adequate data is
available. See Appendix B for our detailed analysis on this topic.

We recommend the Senior Vice President, Operations:

1. Document the methodology used to develop future performance goals for market-
   dominant products.

2. Ensure annual performance goals for market-dominant products are reviewed and
   modified as additional intelligent mail barcode data becomes available.




3
 Start-the-Clock programming is the date and time the mailpiece enters the mailstream. If the mailpiece is accepted
after the critical entry time or dropped in a collection box, business mail chute, or post office location after the last
posted pickup time or on a day when pickup does not occur, the mailpiece has a Start-the-Clock date of the following
applicable acceptance day.


                                                            2
Performance Goals for Market-Dominant Products                                                      EN-AR-09-005



Transparency of Performance Goals Implementation

The Postal Service could enhance transparency in the implementation of the
performance goals by publishing performance goals more timely. Specifically, the
Postal Service agreed to establish the FY 2009 service performance goals before the
end of FY 2008. However, management did not publish the goals for all market-
dominant products until February 2009. Timely publication of the performance goals in
the future could promote transparency for customers and stakeholders. See
Appendix B for our detailed analysis of this topic.

We recommend the Senior Vice President, Operations:

3. Ensure future annual service performance goals are published within 30 days after
   approval.

Compliance with Regulatory Requirements

The Postal Service complied with regulatory requirements for establishing service
performance goals by establishing a goal of continuous improvement. However, the
PRC stated the goal lacked specificity and required the Postal Service to establish goals
that reflect percentages of on-time achievement. In subsequent consultation with the
PRC, the Postal Service developed percentage-specific performance goals for its
market-dominant products and published them in February 2009. As a result, the
Postal Service enhanced its service performance measurement tool. See Appendix B
for our detailed analysis of this topic.

Potential Operational Risks

Management is committed to establishing realistic service performance goals that
customers can rely on to be consistently achieved. However, during our review of the
performance goals we noted two key operational risks: service performance potentially
not meeting customers’ expectations and the possibility of mailers not participating in
the full-service4 option for IMb. See Appendix B for our detailed analysis of this topic.

Management’s Comments

Management agreed with our findings and all the recommendations. They agreed to
use historical data from various systems in developing goals as well as review, modify,
and disseminate these goals. Management’s comments, in their entirety, are included
in Appendix E.




4
 Full-service participation in IMb requires mailers to populate and apply a barcode but, unlike basic service, the
barcode must contain a number that is unique to the particular mailpiece. Full-service mailers must also uniquely
barcode any trays or containers they use to package mail and submit electronic documentation of their mailings. The
Postal Service provides pricing discounts and other incentives for mailers implementing full service.


                                                         3
Performance Goals for Market-Dominant Products                               EN-AR-09-005



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers recommendations number 1 and 3 significant, and therefore
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, Director,
Network Optimization Directorate or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Thomas G. Day
    Bill Harris




                                                 4
Performance Goals for Market-Dominant Products                                                      EN-AR-09-005



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Act mandated the establishment of modern service standards and performance
goals for each market dominant product. In accordance with the Act, the Postal Service
developed modern service standards that specify the expected number of days to
deliver a piece of mail for each three-digit ZIP Code origin-destination pair within the
Postal Service network; the performance goals are the percentage of mail expected to
achieve the on-time delivery standard. According to management, the overall
performance goal of the Postal Service is one of continuous improvement. Progress
toward achievement of this goal will be monitored through a combination of service
performance measurement systems.

The following information outlines actions the Postal Service has taken in response to
the Act requirements:

    •   In December 2007, the updated Postal Service Strategic Transformation Plan
        2006-2010 stated that service improvement areas are concentrated on two broad
        areas of market-dominant products: the quality and consistency of service
        provided at all customer contact points and the speed and reliability of end-to-
        end mail delivery across all product lines.

    •   In December 2007, the Postal Service implemented modern service standards
        for the market-dominant products as reported in the Federal Register, Postal
        Service, Title 39 Code of Federal Regulations, Parts 121 and 122 (Modern
        Service Standards for Market-Dominant Products) Final Rule, dated December
        19, 2007.

    •   On June 3, 2008, the Postal Service submitted its proposal for developing
        service performance measurement systems to the PRC for review. On
        November 25, 2008, the PRC granted the Postal Service approval to use
        external and internal service measurement systems, including the IMb,5 to report
        on service performance for market-dominant products.

    •   In June 2008, the Postal Service submitted its Network Plan to Congress.

             o The Network Plan described the performance goal as continuous
               improvement; however, the PRC stated that the plan lacked specific
               performance goals and a vision. As a result, the PRC requested the
               performance goals be expressed as specific percentages of on-time
               achievement.


5
  IMb is a new data rich, four-state barcode the Postal Service is in the process of introducing. The IMb system
includes process and documentation requirements for inducting mail into the postal system and the data system to
monitor and report on mail containing IMbs.


                                                         5
Performance Goals for Market-Dominant Products                                EN-AR-09-005



           o In February 2009, the Postal Service published the FY 2009 goals as
             percentage of on-time achievement.

           o   The Network Plan stated that after establishing these FY 2009 targets, the
               Postal Service would, at a minimum, conduct an annual service standard
               target review before the beginning of each succeeding fiscal year. 
           o On March 30, 2009, the PRC submitted its Annual Compliance Report for
             2008. The report concluded that the Postal Service complied with the Act
             and provided summary information on service performance. However,
             there were some concerns about the limited volume of mail for which
             service standards were measured. In addition, the report stated that
             service measurement was unavailable for 80 percent of mail volume.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the development and implementation processes used to
establish the Postal Service’s performance goals for market-dominant products and
determine if the agency met regulatory requirements. To accomplish the objectives, we
obtained a legal interpretation of Public Law (109-435, dated December 20, 2006, Title
III, § 301 and 302) for the establishment of performance goals from our General
Counsel. We also reviewed the law, rules, and Postal Service guidance for
development and implementation of service performance goals and reviewed PRC
guidance to determine if the Postal Service complied with all regulatory requirements in
establishing the goals. We conducted interviews with management at various levels to
gain an understanding of the process used to establish the service performance goals.
In addition, we compared the Postal Service FY 2009 first and second quarters’ service
performance percentages to the goals for each of the market-dominant products.

We conducted this performance audit from March through September 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 24, 2009, and
included their comments where appropriate.

Because of time constraints and the understanding that the Postal Service is in the early
stages of implementing service performance measurement systems for market-
dominant products, we did not examine performance collection systems. In addition, we
did not include the special services market-dominant product because the performance
measurement requirements were outside the scope of this audit.




                                                 6
    Performance Goals for Market-Dominant Products                                      EN-AR-09-005




    PRIOR AUDIT COVERAGE

                                                 Final Report
     Report Title          Report Number             Date                 Report Results
Business Rules for         EN-AR-09-002         March 12, 2009    The Postal Service complied
Modern Service                                                    with statutory requirements in
Standards                                                         establishing the standards but
                                                                  may have difficulty meeting
                                                                  them due to operational risks.
                                                                  Management agreed with the
                                                                  finding and there were no
                                                                  recommendations.
Intelligent Mail Barcode     IS-AR-09-006       March 31, 2009   Management was not aware of
Project Planning and                                             the significant complexities and
Application                                                      extensive requirements needed
Development Life Cycle                                           for the IMb Full Service-
                                                                 Seamless Acceptance Service
                                                                 Performance (SASP), Release
                                                                 1 application. The report
                                                                 provided three
                                                                 recommendations to ensure all
                                                                 risks and mitigation alternatives
                                                                 have been thoroughly
                                                                 considered, formally
                                                                 documented, and diligently
                                                                 pursued. Management
                                                                 generally agreed with the
                                                                 findings and two
                                                                 recommendations; partially
                                                                 agreed with the third
                                                                 recommendation.
Intelligent                 MS-AR-09-006        March 31, 2009   Controls to manage the
Mail/Seamless                                                    infrastructure to support IMb
Acceptance Project                                               Full Service-SASP were not
Management                                                       adequate and project
                                                                 administration activities were
                                                                 insufficient. These deficiencies
                                                                 placed the Postal Service at
                                                                 risk for delays and cost
                                                                 overrun. The report provided
                                                                 six recommendations for
                                                                 improvements. Management
                                                                 disagreed with the conclusions;
                                                                 however, they partially agreed
                                                                 with two recommendations and
                                                                 agreed with four
                                                                 recommendations.




                                                     7
    Performance Goals for Market-Dominant Products                                     EN-AR-09-005




                                                Final Report
      Report Title          Report Number           Date                Report Results
Service Performance         CRR-AR-09-05       August 14,2009    Delivery Confirmation data
Measurement System –                                             used to calculate the service
Delivery Confirmation                                            performance measures for
                                                                 retail parcels is reliable.
                                                                 However, the strategic plan
                                                                 significantly depends on
                                                                 implementing and using the
                                                                 IMb. The report did not
                                                                 include recommendations.
U.S. Postal Service:         GAO-06-733              July 2006   The report recommended the
Delivery Performance                                             Postal Service modernize its
Standards,                                                       delivery standards; implement
Measurement, and                                                 delivery performance measures
Reporting Need                                                   for major types of mail by
Improvement                                                      providing clear commitment
                                                                 and more effective
                                                                 collaboration; and improve the
                                                                 transparency of delivery
                                                                 performance standards,
                                                                 measures, and results.
U.S. Postal Service:         GAO-09-599              May 2009     The report recommended the
Intelligent Mail Benefits                                         Postal Service address the risk
May Not Be Achieved if                                            of lower than-expected
Key Risks Are Not                                                 customer adoption of
Addressed                                                         Intelligent Mail to ensure
                                                                  successful implementation,
                                                                  which could enhance
                                                                  performance measurement.




                                                      8
Performance Goals for Market-Dominant Products                                                     EN-AR-09-005



                               APPENDIX B: DETAILED ANALYSIS

FCM Performance Goals

The process used to establish FY 2009 FCM performance goals was reasonable. To
develop FCM performance goals, management used historical data available in the
EXFC System. A review of service performance the Postal Service reported for FY
2009’s first and second quarters indicated that actual service performance was
consistent with established performance goals. Achieving performance goals could
increase customers’ confidence in the Postal Service’s ability to deliver their mail in a
timely manner.

The Act required the Postal Service to establish performance goals and develop
objective performance measurement systems for its market-dominant products. To
comply with the Act, management used a modified EXFC to establish goals and
measure service performance for single-piece FCM letters and flats categories. The
Postal Service also used this historical data as a proxy to develop the goals for flats in
the Presort FCM category.

The EXFC measures FCM performance from the time mail enters the mailstream until it
reaches its destination point as illustrated in Figure 1. EXFC is an end-to-end service
performance measurement system that produces accurate, independent, externally
generated results.6 EXFC provides quarterly estimates of single-piece FCM service
performance for 80 performance clusters, encompassing 891 three-digit ZIP Codes
from their overnight and 2-, 3-, and 5- day service standard areas. This network
represents approximately 99 percent of the nation’s destinating single-piece First-Class
stamped and metered mail volume.

                     Figure 1: External First-Class Measurement System




Entrance           U.S. Post Office                    Processing                        Destination

According to management, to maintain performance data integrity and define
performance goals for future fiscal years, an independent contractor will provide the
Postal Service a report showing timely service performance based on data extracted
from the EXFC. Management will use the report to establish future performance goals
while incorporating continuous improvements. Once management has identified the

6
 The Postal Service extracts actual performance data from the EXFC and provides it to an independent contractor
who then analyzes it and determines, on a percentage basis, how well the Postal Service provided its delivery
services for FCM.


                                                        9
Performance Goals for Market-Dominant Products                                EN-AR-09-005



performance goals, they will submit them to the Establish Committee/Deputy
Postmaster General for approval.

In February 2009, management published the FY 2009 service performance goals for
the different FCM categories. To assess the reasonableness of the FY 2009 goals, we
compared them to the service performance results reported in the first and second
quarters of FY 2009. The results for the first and second quarters’ comparison showed
service performance was slightly below FY 2009 goals. Although service performance
results were below these goals, we noted that it increased from the first to the second
quarter, as shown in Appendix C.

According to management, the expansion of EXFC measurement from approximately
460 to 890 3-digit service areas represented a continuous improvement approach for
service performance. Using historical service performance data could assist
management in implementing continuous improvements and may increase customers’
confidence in the Postal Service’s ability to deliver their mail in a timely manner.

Standard Mail, Periodicals, and Package Services Performance Goals

The process used to establish performance goals for Standard Mail, Periodicals, and
package services needs improvement. Specifically, management did not maintain
documentation to support how they used available data and established criteria to
develop FY 2009 percentage goals. According to management, they developed service
performance goals for Standard Mail, Periodicals, and package services based on
limited, interim data that may not represent overall system-wide performance.
Consequently, to establish performance goals, management used customer
expectations, current levels of performance, system capabilities, network capabilities,
product differentiation, economic realities, and their professional judgment. Our review
of service performance for the first and second quarters in FY 2009 indicates actual
service performance was significantly lower than established service performance for
Standard Mail, Periodicals, and package services. Although actual service performance
improved slightly in the second quarter, it was still significantly below FY 2009 goals as
shown in Appendix C.

The Postal Service admitted that developing the goals for such an extensive product
array was somewhat challenging. Unfortunately, historical data was unavailable for
robust analyses of some products, so management decided on goals before
measurement results were available. In addition to not having historical data in some
cases, many of the reporting systems were undergoing extensive revisions.

According to management, the goals were aggressive and developed based on the
following criteria: customer expectations, current levels of performance, system
capabilities, degree of operational difficulty, product differentiation and economic
realities. During an annual cycle, management reviews achievements and develops
target proposals for each fiscal year. They consider the above criteria before
recommending a set of goals for the Board of Governors to review and approve. Once



                                                 10
Performance Goals for Market-Dominant Products                                EN-AR-09-005



the board approves the goals, the Postal Service shares them with the PRC and
stakeholders.

Also, the Postal Service has developed a few new reporting systems; however, some
are still in development. For instance, the IMb system is designed with service
performance measurement capability. Intelligent Mail will allow the Postal Service to
gather more comprehensive and detailed service performance information and measure
it against established performance standards. According to management, once the
Intelligent Mail production system is in place and they implement the Start-the-Clock
programming, additional data will be available for service performance use. However,
the PRC Annual Compliance Report for 2008 stated:

       Success depends heavily on mailer participation in the IMb
       program. The Commission is concerned about accuracy of IMb
       data and will monitor program implementation in FY 2009.

Although management did not have a process to measure service performance for
Standard Mail, Periodicals, and package services, they have remedied this situation by
developing and implementing performance measurement systems. The Postal Service
intends to collect service performance data it could use to develop service performance
goals for its market-dominant products as shown (see Appendix D). In addition, the
Postal Service’s Network Plan stated:

       After establishing the FY 2009 targets, the Postal Service will, at
       a minimum, conduct an annual service standard target review
       before the beginning of each succeeding fiscal year.

According to management, these reviews, along with other factors, will be the basis for
determining if performance goals need adjustment.

Performance results that are significantly lower than performance goals could reduce
customers’ confidence in the Postal Service’s ability to deliver mail in accordance with
established service standards. In addition, an adequately documented process on how
goals are established could enhance customers’ confidence, agency transparency, and
accountability for mail service performance.

Transparency of Performance Goals Implementation

The Postal Service may have missed an opportunity to promote its commitment to
transparency for its customers and stakeholders by not publishing the FY 2009 annual
service performance in a more timely fashion. Specifically, the Postal Service stated in
the Network Plan that it would establish the FY 2009 performance percentage goals
before the end of FY 2008.

The Act required the Postal Service, in consultation with the PRC, to establish service
performance goals within 6 months after establishing new service standards that it



                                                 11
Performance Goals for Market-Dominant Products                                 EN-AR-09-005



developed later in December 2007. The Postal Service met that requirement in June
2008, by including continuous improvement as its performance goal in the Network
Plan. The PRC, however, strongly suggested that goals be expressed as “percentage
on-time” achievement. According to management, they embraced the enhanced
transparency and accountability but stated that specific goals would be unavailable until
early 2009.

Discussions with field personnel indicate they were informed of the implementation of
FCM performance goals in October 2008. Management could not provide supporting
documentation on when it established the performance goals for Standard Mail,
Periodicals, and package services. However, management published the goals in
February 2009. Timely publication of annual service performance goals promotes
transparency and accountability to customers and stakeholders.

We recognize the difficulty management encountered during development of the
FY 2009 annual service performance goals and their commitment to continuous
improvement.

Compliance with Regulatory Requirements

We concluded the Postal Service complied with regulatory requirements in establishing
service performance goals as continuous improvement. However, the PRC stated the
goals lacked specificity and strongly encouraged the Postal Service to adopt more
explicit percentage goals for all classes of mail and include those goals in their plan to
Congress. The Postal Service complied with the PRC requirement but advised that
goals would be unavailable until early 2009.

The Act required the Postal Service, in consultation with the PRC, to establish service
performance goals within 6 months after establishing new service standards. The goals
were required to be part of a plan for meeting the service standards it developed later in
December 2007. The law directed the Postal Service to describe any changes to its
processing, transportation, delivery, and retail networks necessary to allow the Postal
Service to meet the performance goals. The Act also required the plan be submitted to
Congress along with other regulatory requirements.

Furthermore, according to the March 30, 2009, PRC Annual Compliance Determination
report, information the Postal Service provided to the PRC seems to be in compliance
with the Act. However, the PRC had concerns regarding the limited volume of mail for
which the Postal Service measures service standards, but recognized that full
implementation of the IMb should enhance mail volume coverage for measurement
data.




                                                 12
Performance Goals for Market-Dominant Products                               EN-AR-09-005



Potential Operational Risks

According to management, the Postal Service is committed to establishing realistic
performance goals that customers can rely on to be consistently achieved. During our
review, we noted two key operational risks related to the development of the FY 2009
annual service performance goals:

   •   One key risk is the potential of not achieving the service performance goals for
       Standard Mail, Periodicals, and package services. Our review showed that
       service performance for the first two quarters of FY 2009 were significantly lower
       for some market-dominant products. Customers’ and stakeholders’ confidence in
       the Postal Service’s ability to deliver mail in accordance with service standards
       could be damaged if the Postal Service is unable to achieve stated performance
       goals. Management indicated they are aware of the risk and are working to
       address it. Additionally, management agreed to conduct annual service standard
       target reviews before the beginning of each fiscal year.  

   •   The second risk is whether the Postal Service would achieve an acceptable level
       of mailer participation once it fully deployed the IMb system. During our review,
       management indicated strategies would be implemented to encourage the
       mailers to use the IMb system.




                                                 13
Performance Goals for Market-Dominant Products                                EN-AR-09-005



   APPENDIX C: POSTAL SERVICE’S FY 2009, FIRST AND SECOND QUARTER
    COMPARISON OF ON-TIME SERVICE PERFORMANCE TO PERFORMANCE
                               GOALS

                                             National
                                                  Deviation    2nd Quarter   Deviation
                                   1st Quarter FY
      Market         FY 2009                        from         FY 2009       from
                                        2009
     Products        Goals %                      Goal (Q1)    Performance   Goal (Q2)
                                   Performance %
                                                      %             %            %
   Single Piece FCM
   Overnight      96.5                   95.6           0.9       96.2         0.3
   2-Day          94.0                   91.9           2.1       93.1         0.9
   3-5 day        92.7                   85.7           7.0       91.0         1.7
   Presort FCM
   Overnight      96.5                   91.2           5.3       92.9         3.6
   2-Day          94.0                   87.8           6.2       89.9         4.1
   3-5 day        92.7                   84.2           8.5       87.3         5.4
   Single Piece FCM
   International  94.0                   86.2           7.8       88.8         5.2
   Standard Mail
   Destination
                  90.0                   87.4           2.6       88.5         1.5
   Entry
   End to End     90.0                   77.2           12.8      78.9         11.1
   Periodicals
   Periodicals    91.0                   69.8           21.2      73.6         17.4
   Packages
   Packages       90.0                   64.7           25.3      69.3         20.7




                                                 14
Performance Goals for Market-Dominant Products                                                      EN-AR-09-005



       APPENDIX D: POSTAL SERVICE MEASURMENT APPROACH AT FULL
                               ROLLOUT7

                              Single-Piece                                         Presort
                   Letters    Flats      Parcels                 Letters            Flats            Parcels
                                                                                                       Start:
                                             Start:                Start:
                                                                                                   Documented
                                          Acceptance           Documented
                                                                                                  Arrival Time at
                                             Scan             Arrival Time at     EXFC as
     FCM           EXFC       EXFC                                                                Postal Facility
                                         Stop: Delivery       Postal Facility      Proxy8
                                                                                                  Stop: Delivery
                                         Confirmation         Stop: External
                                                                                                   Confirmation
                                         Delivery Scan          Reporting
                                                                                                  Delivery Scan
Single-Piece                  EXFC        Single-Piece
    FCM            IMMS9        as        FCM parcels              N/A               N/A                N/A
International                 proxy10      as proxy11
                                                                   Start:            Start:
                                                               Documented        Documented
                                                              Arrival Time at   Arrival Time at
Periodicals12        N/A        N/A            N/A            Postal Facility   Postal Facility         N/A
                                                              Stop: External    Stop: External
                                                                Reporting         Reporting
                                                                                                       Start:
                                                                   Start:            Start:
                                                                                                   Documented
                                                               Documented        Documented
                                                                                                  Arrival Time at
                                                              Arrival Time at   Arrival Time at
Standard Mail        N/A        N/A            N/A                                                Postal Facility
                                                              Postal Facility   Postal Facility
                                                                                                  Stop: Delivery
                                                              Stop: External    Stop: External
                                                                                                   Confirmation
                                                                Reporting         Reporting
                                                                                                  Delivery Scan
                                                                                                       Start:
                                             Start:                                  Start:
                                                                                                   Documented
                                          Acceptance                             Documented
                                                                                                  Arrival Time at
    Package                                  Scan                               Arrival Time at
                     N/A        N/A                                N/A                            Postal Facility
    Services                             Stop: Delivery                         Postal Facility
                                                                                                  Stop: Delivery
                                         Confirmation                           Stop: External
                                                                                                   Confirmation
                                         Delivery Scan                            Reporting
                                                                                                  Delivery Scan




7
  Special Services are not included in Table 1 as they have different methods to Start-the-Clock and Stop-the-Clock
for the market-dominant products.
8
  The Postal Service will use the EXFC measurement for single-piece flats as a proxy for Presort FCM flats because
of the very small volume of Presort flats.
9
  The International Mail Measurement System (IMMS) is an external measurement system for which an independent
measurement contractor seeds mail into the mailstream.
10
   The EXFC measurement for domestic single-piece FCM flats will serve as a proxy for single-piece FCM
International flats because of the small volume in the latter category. After clearing customs, single-piece FCM
International flats enter the domestic mailstream and are handled with domestic single-piece FCM flats.
11
   The Postal Service will use the measurement for domestic single-piece FCM parcels as a proxy for single-piece
First-Class International parcels.
12
   Two mailer-operated external systems, Red Tag and Time Inc.’s DelTrak, will be used for Periodicals measurement
during FY 2009, as the Postal Service transitions to a long-term internal solution.


                                                         15
Performance Goals for Market-Dominant Products                EN-AR-09-005



                          APPENDIX E: MANAGEMENT’S COMMENTS




                                                 16
Performance Goals for Market-Dominant Products        EN-AR-09-005




                                                 17
Performance Goals for Market-Dominant Products        EN-AR-09-005




                                                 18
